HHS/OIG, Audit - "Review of Quality Improvement Organization in Texas,"
(A-06-06-00072)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Texas," (A-06-06-00072)
May 28, 2008
Complete
Text of Report is available in PDF format (732 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the $6.5 million in costs incurred by TMF Health Quality
Institute (TMF) for the period February 1, 2003, through January 31, 2006,
$403,000 was unallowable and $49,000 was potentially unallowable.
The Senate Finance Committee requested that the Office of Inspector General
assess the fiscal integrity of the Medicare Quality Improvement Organizations
with respect to six specified fiscal integrity areas.
This report is one of a series of nine reports on audits of QIOs
nationwide.
We recommended that TMF (1) refund $17,000 for unallowable legal fees and
consultant travel; (2) reduce the indirect cost pool by $386,000 for severance
packages for executives, board member and executive travel, and conference
costs; and (3) work with the CMS contracting officer to determine what portion
of the $49,000 incurred for compensation during our audit period should be
excluded from the indirect cost pool for purposes of determining final rates.  TMF disagreed with most of our findings and believes that only $35,200 was
unallowable.